--                                                     -
                     I




                          CLOSE OUT OF M90100039


In October, 1990, OIG received two letters objecting to returns
of two
      proposal.   One letter from          -
                    proposals and a declination of one
                                                          -

                                   alleged no reconsideration of
two "returned as inappropriate proposals."   One letter from
                                           -       , alleged no
                              proposal.
Neither letter addresses a misconduct matter. We advised-
(             ,  that the NSF Grant Policy Manual clearly does
not allow for reconsideration of                proposals and we
sent information on how to pursue reconsideration on the 0
0 proposal using established NSF procedures.
We are closing this case because these matters fail to reach the
substance of misconduct.




DATE   3151q!




&c:-- Inspector Gener 1

                          &@
